CERTIFICATE OF SERVICE
NO. TBD
Don Wilburn Collins
Petitioner,
v.
The State of Texas
Respondent.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the DON
WILBURN COLLINS PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct copies of
the same by Fedex 2-Day, prepaid for delivery to the following addresses.
Ken Paxton
Attorney General of Texas
209 West 14th Street
Austin, TX 78701
Counsel for The State of Texas

Brett Ligon
Montgomery County District Attorney
207 W Phillips St
2nd Floor
Conroe, TX 77301
brett.ligon@mctx.org
Counsel for The State of Texas

Lucas DeDeus

May 10, 2021
SCP Tracking: Crow-414 W. Phillips Street-Cover White

